Department of Homeland Security
   Ofﬁce of Inspector General

         Better Monitoring and Enhanced 

        Technical Controls Are Needed to 

            Effectively Manage LAN-A 


                   (Redacted)





OIG-09-55                               April 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      April 10, 2009


                                          Preface

The Department of Homeland Security (DHS), Office of Inspector General, was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of DHS’ management of its
headquarters network, known as LAN-A. It is based on interviews with selected officials
and contractor personnel, direct observations, technical scans, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 

Executive Summary ................................................................................................................1


Background .............................................................................................................................2


Results of Audit ......................................................................................................................4

   OCIO Has Taken Initial Steps to Improve LAN-A Management ....................................4 

   Additional Monitoring Is Needed To Administer LAN-A IT Contract Services .............4 

   Recommendations.............................................................................................................8 

   Management Comments and OIG Analysis .....................................................................8 


     Enhancements Can Be Made in LAN-A Technical Controls .........................................10 

     Recommendations...........................................................................................................14 

     Management Comments and OIG Analysis ...................................................................14 


     Compliance with DHS Information Security Program...................................................16 

     Recommendations...........................................................................................................18 

     Management Comments and OIG Analysis ...................................................................18 


Appendices
    Appendix A:          Purpose, Scope, and Methodology............................................................20 

    Appendix B:          Management Comments to the Draft Report ............................................21 

    Appendix C:          Major Contributors to this Report .............................................................25 

    Appendix D:          Report Distribution....................................................................................26 


Abbreviations
     ATO                 Authority to operate
     CO                  Contracting Officers
     CONOPS              Concept of Operations
     COTR                Contracting Officer Technical Representatives
     DAA                 Designated Accreditation Authority or Designated Approving Authority
     DHS                 Department of Homeland Security
     FISMA               Federal Information Security Management Act
     FY                  Fiscal Year
     IT                  Information Technology
     ITAC                Information Technology Acquisitions Center
     ITMS                Information Technology Management Services
     IT-NOVA             Information Technology Network Operations Virtual Alliance
     ITSO                Information Technology Services Office
     NIST                National Institute of Standards and Technology
     O&M                 Operations and Maintenance
Table of Contents/Abbreviations 

  OCIO     Office of Chief Information Officer
  OCPO     Office of Chief Procurement Officer
  PAR      Privilege Account Request
  POA&Ms   Plan of Action and Milestones
  PRISM    Purchase Request Information System
  SLA      Service Level Agreements
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                       LAN-A is the Department of Homeland Security (DHS)
                       unclassified headquarters’ network. The network provides email
                       and data communication services for all headquarters personnel in
                       the Washington, DC, metropolitan area. In mid 2007, DHS
                       consolidated services from several information technology (IT)
                       related contracts into the Information Technology Network
                       Operations Virtual Alliance (IT-NOVA) to help it manage LAN-A
                       more effectively.

                       We evaluated network operations to determine whether DHS is
                       effectively managing LAN-A. In addressing our objective, we
                       determined whether the contractor has provided adequate support
                       services in accordance with the contract terms; effective system
                       controls have been implemented to protect the network; and
                       program officials have ensured that LAN-A was certified and
                       accredited in accordance with DHS information security policy.

                       Overall, DHS has implemented effective system controls to protect
                       the information stored and processed by the system. For example,
                       DHS ensures that patch management and vulnerability assessments
                       are performed periodically on LAN-A. In assessing the controls
                       that have been implemented, we identified only a few missing
                       security patches. In addition, audit trails were enabled on servers,
                       workstations, and routers. Finally, the IT-NOVA Operations and
                       Maintenance (O&M) contractor has established an IT Service Desk
                       to provide 24 hour end users support.

                       However, additional monitoring of the contract is needed to ensure
                       that the contractor is providing adequate services and the required
                       deliverables. In addition, DHS can make improvements in
                       managing its privileged and                     applying security
                       patches,                                         Finally, DHS must
                       ensure that LAN-A is reaccredited according to applicable
                       guidance, and that the required security documents are developed
                       and continuously updated.


     Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A 


                                              Page 1 

                          We are making 10 recommendations to the Under Secretary for
                          Management and Chief Information Officer. The department
                          concurred with our recommendations and has already begun to
                          take actions to implement them. The department’s response is
                          summarized and evaluated in the body of this report and included,
                          in its entirety, as Appendix B.

Background
                          LAN-A, DHS’ unclassified network, provides email and data
                          communication services for all headquarters personnel in the
                          Washington, DC, metropolitan area. The IT Services Office
                          (ITSO) within the Office of the Chief Information Officer (OCIO)
                          is responsible for maintaining the network. Most LAN-A users are
                          from headquarters components and offices, such as Domestic
                          Nuclear Detection, Management, National Protection and
                          Programs, and Science and Technology.

                          In June 2006, LAN-A was compromised when malicious software
                          was installed on 150 of DHS’ workstations.1 Subsequent reviews,
                          including a congressional investigation, revealed that the LAN-A
                          contractor had not fulfilled its responsibilities to install security
                          devices or elevate security incidents to DHS officials.
                          Specifically, investigators found that the contractor had installed
                          only three of the required seven intrusion detection devices at the
                          time of the compromise.

                          Following this incident, in mid-2007, the department consolidated
                          services from several IT-related contracts into IT-NOVA. DHS
                          awarded two task orders under IT-NOVA:                       was
                          awarded an O&M task order and
                               was awarded a Project Management Office task order.
                          During this audit, we focused on reviewing the IT services and
                          contractor performance provided under the IT-NOVA O&M task
                          order.

                          The IT-NOVA O&M task order included a full range of IT support
                          services. A list of task order components and services is shown in
                          Figure 1. Specifically,                  was tasked with
                          providing support for all network services, including user support
                          and security monitoring.


1
  Malicious software is a general term for programs that, when executed, cause undesired results on a
system. The malicious software used in this attack sent unclassified data from DHS’ systems to Chinese
language websites.

       Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                                 Page 2
                  Figure 1: IT-NOVA O&M Task Order Support Services




                          Applica ion                              Infrastructure            End
                                                 Deployment
                         Management                                 Engineering              User
                                                  Support
                           Services                                   Services              Support




                         File and data          Deployment plans   Server and              Work flow
                         storage                Network diagrams   storage device          descriptions
                         Printing               Equipment          management              Helpdesk services
                         Remote access          inventories        Client                  Preventa ive
                         Messaging              Equipment          configuration           maintenance plan
                         services               installation       management
                         Upgrades and                              Local area network
                         updates                                   management
                         Security patches




                  The IT-NOVA task order is managed by two offices within the
                  Management Directorate. The technical oversight of the task order
                  is provided by the ITSO. Contracting and procurement oversight
                  for IT-NOVA are provided by staff from the Office of Chief
                  Procurement Officer (OCPO) IT Acquisitions Center (ITAC).
                  Figure 2 outlines the IT-NOVA management structure, including
                  the OCIO, ITSO, OCPO, and ITAC.

                  Figure 2: IT-NOVA Management Structure




Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                            Page 3
Results of Audit
OCIO Has Taken Initial Steps to Improve LAN-A Management
                      OCIO has taken some positive steps to improve LAN-A
                      management and security. For example, patch management and
                      vulnerability assessments are being performed periodically on
                      LAN-A. These actions help to identify and mitigate network
                      security vulnerabilities. During our security testing, security
                      patches were being applied. In addition, audit trails recording user
                      login activities were enabled on servers, workstations, and routers.

                      Furthermore, the O&M contractor has established an IT Service
                      Desk to provide 24 hour user support for applications and network
                      services. The IT Service Desk has maintained customer service
                      satisfaction levels above 90% for August, September, and
                      October 2008.

                      These actions have improved the security and reliability of
                      LAN-A. Yet, DHS can make further improvements to effectively
                      manage the network. For example, additional monitoring of
                      contractor performance is needed to effectively administer the
                      IT-NOVA task order. In addition, DHS needs to ensure that
                      detailed procedures for IT and security related activities are
                      documented. Furthermore, improvements can be made in technical
                      controls to strengthen the network’s information security. Finally,
                      DHS must ensure that security documents are updated prior to
                      re-certifying and accrediting LAN-A.

Additional Monitoring Is Needed to Administer LAN-A IT Contract
Services
                      OCIO is not effectively administering the O&M contract
                      requirements. For example, OCIO has not provided clear guidance
                      and exercised sufficient oversight necessary to ensure that the
                      contractor has delivered the full range of IT services and related
                      documentation required by the contract. Furthermore, OCIO has
                      not taken the actions needed to address and correct deficiencies
                      identified in the contractor’s performance. As a result, certain
                      contract service requirements have not been met.




    Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                            Page 4
                  O&M Contract Administration Issues

                  OCIO has not defined its responsibilities for LAN-A program
                  management oversight, including communication with the
                  contractor to ensure that the contractor provides adequate IT
                  support to users. In addition, OCIO has faced challenges
                  coordinating the work of various contractors within ITSO. This
                  has led to contractor delays in troubleshooting LAN-A problems
                  related to its network and applications, and in responding to user
                  requests.

                  Furthermore, OCIO has not ensured that the contractor receives
                  tasking direction only from authorized contracting officials. We
                  identified instances where senior program officials, who have not
                  been given contractual authority, have instructed contractor
                  personnel to perform services that are not in accordance with the
                  terms stated in the task order.

                  The need for additional staff at OCIO has contributed to the
                  insufficient coordination between various contractor efforts or
                  responding to users’ issues timely. Specifically, the Director of the
                  Headquarters Services division estimated that the division requires
                  twice as many staff members to manage the size and scope of
                  services under the IT-NOVA task order. Due to inadequate
                  monitoring and oversight, there have also been delays in
                  authorizing task order payments and providing technical support
                  services that had not been authorized by the proper personnel.

                  OCIO Has Not Provided Clear Guidance and Defined
                  Reporting Requirements

                  OCIO has not provided guidance to the contractor regarding the
                  content and details that should be included in the contractor’s
                  monthly LAN-A performance and quality control reports. As a
                  result, the contractor has not been providing these monthly reports.
                  Without these reports, OCIO does not have the necessary
                  information to evaluate contractor performance.

                  Beginning in June 2008, the IT-NOVA O&M task order required
                  that the contractor provide monthly performance summary reports
                  containing information on the dates, times, and duration of outages
                  or service interruptions on DHS applications, network
                  environments, and databases. In addition to the monthly
                  performance reports, the contractor agreed to provide the
                  department with a monthly quality control plan. The quality

Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 5
                          control plan describes how the contractor will control the
                          equipment, systems, or services in order to meet the task order
                          requirements. The plan would then be used as the basis for the
                          monthly quality control reports. OCIO did not immediately
                          approve the quality control plan that was submitted in May 2008.
                          Furthermore, since OCIO had not provided clear guidance on the
                          content to be included in the monthly reports, at the request of
                          OCPO, the contractor suspended providing this information to the
                          department.

                          In December 2008, we informed OCIO that the department was
                          not receiving the information needed to properly evaluate and
                          monitor contract performance as it relates to LAN-A. Subsequent
                          to that meeting, a procurement official informed us that the quality
                          control plan was approved by OCIO. Additionally, both OCIO and
                          the contractor agreed on the content for the monthly reports. The
                          contractor is to begin submitting future monthly performance
                          summary and quality control reports starting in January 2009.

                          OCIO Has Not Responded to LAN-A Contractor Performance
                          Deficiencies

                          OCIO has not timely responded to contractor deficiencies
                          identified. Specifically, OCIO officials have not ensured that the
                          deficiencies identified in contractor service support are being
                          addressed.

                          On April 17, 2008, the contracting officer issued a quality
                          discrepancy report,2 which outlined issues regarding the
                          performance of the O&M contractor. The quality discrepancy
                          report identified that the contractor had not met all service
                          requirements for the IT Service Desk and had not appointed the
                          necessary senior staff to the engineering, operations, and
                          applications areas. This formal report required the contractor to
                          address the identified deficiencies and respond with a proposed
                          corrective action plan within 10 days.

                          On May 1, 2008, the contractor responded with an action plan and
                          requested a meeting with OCIO to discuss its response. On
                          June 11, 2008, the contracting officer tasked OCIO staff, including
                          the contracting officer technical representative, to review and
                          respond to the contractor’s action plan by June 16, 2008. OCIO,
2
  A quality discrepancy report is a formal notification from the contracting officer to the contractor
regarding contractual performance. The report allows the contractor an opportunity to correct or replace
nonconforming services or supplies.

        Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                                  Page 6
                         however, never responded to the contractor’s action plan. In a
                         follow-up meeting on June 19, 2008, the contracting officer
                         decided to close the performance deficiencies identified without
                         further recourse.

                         In addition to the deficiencies noted in the quality deficiency
                         report, we determined that the contractor has not documented the
                         processes and procedures for IT and information security activities.
                         For example, the contractor was required to develop a
                         comprehensive concept of operations (CONOPS) with documented
                         processes and procedures for the IT Service Desk. We determined
                         that the CONOPS developed has not met all the requirements, as
                         noted in Figure 3.

                         Figure 3: IT Service Desk Operations


                                            Service Desk Concept of Operations
                                             Requirements and Documentation

                              Task order Requirements for           Current CONOPS Contents
                                       CONOPS                              (10/15/2008)
                              •Organizational chart                •Organizational roles and
                                                                   responsibilities
                              •Work flow
                                                                   •Work flow
                              •Detailed description of
                              processes, procedures, and
                              policies
                              •Work breakdown structure
                              •Detailed performance metrics
                              and evaluation criteria



                         Due to staffing shortages, OCIO has not been able to adequately
                         monitor the O&M contractor requirements, perform its program
                         management oversight functions or properly evaluate contractor
                         performance. As of September 2008, ITSO had staffed only 60%
                         of its available federal positions. OCIO officials recognize that
                         staffing shortages for federal positions remain an issue for ITSO.
                         Further, we reported that DHS faced significant challenges in
                         establishing an effective IT management structure to oversee IT
                         resources.3 Without sufficient monitoring, oversight, and staffing,
                         there is little assurance that the O&M service support provided for
                         LAN-A is adequate.

3
 Progress Made in Strengthening DHS Information Technology Management, But Challenges Remain,
dated September 2008 (OIG-08-91).

       Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                                Page 7
         Recommendations
         We recommend that the Under Secretary for Management direct the Chief
         Information Officer to:

                  Recommendation #1: Strengthen the department’s monitoring
                  oversight of the O&M contractor to ensure that services are
                  provided in accordance with the task order.

                  Recommendation #2: Obtain required monthly reports and the IT
                  Service Desk procedures from the O&M contractor.

                  Recommendation #3: Take steps to ensure that only personnel
                  with appropriate contractual responsibility can provide direction to
                  the contractor to perform its tasks; and provide clear and sufficient
                  guidance to the contractor to perform its services.

                  Recommendation #4: Address the deficiencies identified in the
                  contractor’s performance.

         Management Comments and OIG Analysis
                  DHS concurred with recommendation 1. DHS agreed that the
                  department must strengthen its oversight of the O&M contractor
                  and ensure contractual obligations are adequately met. DHS has
                  developed Service Level Agreements (SLAs) for contractor
                  performance, and updated the department’s current practices to
                  monitor and evaluate contractor performance. DHS will negotiate
                  with the contractor to add SLAs and enhanced service metrics,
                  aimed at tracking and improving the contractor’s performance.
                  DHS anticipates completing the negotiations and having the SLAs
                  added to the contract by the third quarter of FY 2009.

                  We agree that the steps DHS are taking, and plans to take, begin to
                  satisfy this recommendation.

                  DHS concurred with recommendation 2. DHS agreed that the
                  required monthly deliverables must be consistently submitted,
                  reviewed, and approved by government staff. The department
                  acknowledged that this requirement has not been occurring on a
                  consistent basis. Furthermore, DHS agreed that when the
                  contractor is unable to provide a required deliverable, it must be
                  documented in a performance deficiency letter and followed up
                  with to ensure swift resolution. The contractor has drafted a

Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 8
                  CONOPS for the IT service desk. DHS will complete its review
                  within 30 days of their response to either accept or reject these
                  standard operating procedures. Finally, OCIO will make monthly
                  on-site monitoring visits to ensure daily and weekly monitoring
                  and reporting for effectiveness and to solicit feedback from the
                  stakeholder for contractor performance.

                  We agree that the steps DHS are taking, and plans to take, begin to
                  satisfy this recommendation.

                  DHS concurred with recommendation 3. DHS agreed that the
                  department must adhere to the Federal Acquisition Regulation to
                  ensure that only Contracting Officers (CO) and Contracting Officer
                  Technical Representatives (COTR) provide direction to contractor
                  personnel to perform its tasks. Immediately, DHS will strengthen
                  its oversight to ensure that only authorized government personnel
                  with contractual responsibilities, i.e., CO, COTR, can provide
                  direction to contractor personnel. DHS will review all deliverables
                  to monitor the process and ensure contractor compliance. In
                  addition, the department will ensure that only authorized
                  personnel, i.e., CO, COTR, can commit DHS to any type of
                  contractual obligation and only to the extent of their delegated
                  authority. Personnel responsible for contracts shall maintain a
                  close and continuous relationship with the CO to ensure that
                  acquisition personnel are made aware of contemplated acquisition
                  actions. DHS believes that these changes will improve the
                  department’s planning for acquisition action and provide more
                  timely, efficient economical acquisition, and contractor oversight.
                  Finally, DHS acknowledged that personnel who are not delegated
                  contracting authority or insufficient contracting authority shall not
                  commit the Government, formally or informally, to any type of
                  contractual obligation. All OCIO personnel were scheduled to
                  receive a briefing on the responsibility of government contractual
                  personnel by February 19, 2009.

                  We agree that the steps DHS are taking, and plans to take, begin to
                  satisfy this recommendation.

                  DHS concurred with recommendation 4. DHS agreed that the
                  department must follow-up on the deficiencies identified
                  throughout contractor performance in a timely and thorough
                  manner. To improve the quality and efficiency of the department’s
                  monitoring process, DHS will conduct monthly reviews with the
                  contractor’s senior management and document deficiencies for
                  future actions.

Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 9
                      We agree that the steps DHS are taking, and plans to take, begin to
                      satisfy this recommendation.

Enhancements Can Be Made in LAN-A Technical Controls
                      OCIO does not have an effective process to manage its LAN-A
                      privileged accounts or ensure that security patches are deployed on
                      applications. For example, OCIO has not defined the system
                      administrators’ responsibilities for deploying security patches.


                                          As a result, there is greater risk that security
                      controls implemented to protect LAN-A may be circumvented.

                      Privileged Accounts Are Not Properly Managed and
                      Maintained

                      OCIO does not have an effective process to manage its LAN-A
                      privileged accounts to ensure that only those authorized to perform
                      administration duties have the appropriate permissions. Privileged
                      accounts are those having elevated access permissions only granted
                      to system administrators to perform their network related job
                      functions. When the privileged accounts are not properly
                      managed, it may allow malicious users the capability to bypass
                      security features and have unmonitored access to system
                      configuration settings and data.




                               To request elevated access permissions, users are required
                      to complete an access request form. The form is then routed to
                      appropriate personnel for review and approval. Once the request
                      has been approved, users are assigned to the groups to perform
                      their network related functions.




    Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                            Page 10
                  While OCIO has established a process for requesting and granting
                  elevated access permissions, this process has not been fully
                  implemented. For example:

                      �



                                                                                As of
                           November 2008,
                                                  accounts have been granted to
                           contractors who manage LAN-A



                      �	   A domain administrator was granted enterprise 

                           administrator access 


                                       This assignment of permissions, done without
                           documented management approval, circumvents the access
                           permission request process and

                                              Since no documented approval and audit
                           trails were available, we could not determine who modified
                           the group policy to grant domain administrator higher
                           access permission.




                      �




                      �




Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 11
                      �




                  Elevated account access, such as that granted to system
                  administrators, must be managed properly to prevent unauthorized
                  access to LAN-A. Poor management and maintenance of
                  privileged accounts may increase the risks of individuals exploiting
                  these accounts to gain unauthorized access to the network and
                  DHS assets.




                                                     Further, while audit trails are
                  enabled on routers, servers, and workstations,




                  Documented LAN-A Patch Management Process Has Not Been
                  Established

                  While security patches were applied to servers and workstations,
                  DHS does not have documentation outlining specific duties, roles,
                  and responsibilities regarding the LAN-A patch management
                  program. Documented procedures can ensure that security patches
                  are deployed in a consistent manner.



Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 12
                                                      on a monthly basis. Security
                  patches are tested and evaluated before they are deployed

                                      to verify that security patches have been
                  deployed.


                  To evaluate the patch management process for LAN-A, we
                  interviewed administrator personnel, examined documentation, and
                  performed vulnerability testing on a sample of servers,
                  workstations, and network devices. Of the 453 LAN-A devices
                  that were tested, we identified the following high-risk
                  vulnerabilities that may be exploited if they are not properly
                  mitigated:

                      �



                      �

                      �



                      �



                      �




                  DHS requires that security patches be installed in a timely and
                  expeditious manner. The National Institute of Standards and
                  Technology (NIST) also recommends that agencies have an
                  explicit and documented patching and vulnerability policy as well
                  as a systematic, accountable, and documented set of processes and
                  procedures for handling patches. Documented procedures should
                  specify the techniques an agency will use to monitor for new
                  patches and vulnerabilities and the personnel responsible for such
                  monitoring.


Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 13
                  Without a documented patch management process to support the
                  security program for LAN-A, DHS cannot ensure that all
                  vulnerabilities have been mitigated to prevent malicious users from
                  gaining uncontrolled access to LAN-A. Applying security patches
                  is critical for securing LAN-A and protecting sensitive data from
                  unauthorized access, manipulation, and misuse.

                  Inadequate management of privileged accounts, weaknesses
                  identified in patch management, and


                                These weaknesses may allow malicious users to
                  bypass or disable computer access controls and undertake a wide
                  variety of inappropriate or malicious acts.

         Recommendations
         We recommend that the Under Secretary for Management, direct the Chief
         Information Officer to:

                  Recommendation #5: Establish a process to ensure that LAN-A




                  Recommendation #6: Ensure that the authorization for privileged
                  LAN-A access is documented, reviewed and approved by
                  appropriate officials.

                  Recommendation #7: Develop a documented process to deploy
                  security patches on LAN-A.

                  Recommendation #8:


         Management Comments and OIG Analysis
                  DHS concurred with recommendation 5. DHS noted that the
                  policies that govern privileged accounts need to be stricter than
                  those of regular user accounts. In addition, DHS




Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 14
                  We agree that the steps DHS are taking, and plans to take, begin to
                  satisfy this recommendation.

                  DHS concurred with recommendation 6. DHS noted that the
                  department has established a process to ensure that the requests for
                  privileged LAN-A accounts are documented, reviewed, and
                  approved by appropriate officials. DHS also acknowledged that
                  more resources must be dedicated to auditing this process.
                  Currently, all request/business justifications for privileged
                  accounts must be submitted to the helpdesk via a Privileged
                  Account Request (PAR) through the requestor’s immediate
                  supervisor, approved by the government lead of Operations, and
                  then approved by the LAN-A Security Manager. Beginning in the
                  third quarter of FY 2009, DHS will perform a bi-monthly audit of
                  privileged accounts to ensure that no accounts were created outside
                  of this process. In addition, DHS will establish a one year
                  expiration date for all PARs and will require customers to re-apply
                  through the approval process if the requirement for said account
                  still exists.

                  We agree that the steps DHS are taking, and plans to take, begin to
                  satisfy this recommendation.

                  DHS concurred with recommendation 7. DHS noted that a draft
                  copy of the standard operating procedures for deploying security
                  patches on LAN-A was provided to the OIG during the audit. In
                  order to have an effective patch management process, DHS
                  acknowledged that the draft procedures require revision to include
                  branch manager approval, and consistent execution. Finally, DHS
                  maintained that security patches are being applied on LAN-A as
                  only a few missing security patches were identified during the
                  audit.

                  We agree that the steps DHS are taking, and plans to take, begin to
                  satisfy this recommendation.

                  DHS concurred with recommendation 8.




Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 15
                          We agree that the steps DHS are taking, and plans to take, begin to
                          satisfy this recommendation.

Compliance with DHS Information Security Program
                          LAN-A program officials do not ensure that security documents
                          required by the department, e.g. system security plan, plan of
                          action and milestones (POA&Ms), etc, are periodically updated
                          and contain the necessary information for the DAA to make a
                          credible decision to re-certify and accredit LAN-A.4 DHS and
                          NIST require that security documents be included as part of the
                          accreditation package and be updated periodically.

                          According to NIST guidance, the certification & accreditation
                          process, when applied to agency information systems, provides a
                          systematic approach to assess whether the management,
                          operational, and technical security controls are effectively
                          implemented. Status reporting and periodic update of security
                          documentation is one of the tasks that must be performed during
                          the continuous monitoring phase. The purpose of status reporting
                          and maintaining security documentation current is to: (1) update
                          the system security plan to reflect the proposed or actual changes
                          to the information system; (2) update the POA&Ms based on the
                          activities carried out during the continuous monitoring phase; and
                          (3) report the security status of the information system to the
                          authorizing official and senior agency information security officer.

4
  According to applicable NIST guidance, continuous monitoring of security controls and updating system
documentation is a critical aspect of the certification & accreditation process in the post-accreditation
period. The purpose of this phase is to provide oversight and monitoring of the security controls in the
information system on an ongoing basis and to inform the authorizing official when changes occur that may
impact the security of the system. Continuous monitoring results should be documented and reported to the
authorizing official on a regular basis. The monitoring results should also be considered when making
updates to the system security plan and to the POA&Ms because the authorizing official and the
certification agent will use these security documents to make the accreditation decision.

       Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                                Page 16
                  The activities in this phase are performed continuously throughout
                  the life cycle of the information system.

                  After the original accreditation expired in July 2008, the DAA
                  granted an authority to operate (ATO) of six months to LAN-A.
                  However, even though the DAA was not given the most updated
                  and credible information to reaccredit the network, LAN-A was
                  reaccredited anyway. For example, the system security plan has
                  not been updated since LAN-A was accredited in July 2005. For
                  FISMA reporting purposes, the Chief Information Officer reviews
                  accreditation packages for all information systems for compliance
                  with applicable DHS and NIST guidance. After reviewing the
                  accreditation package for LAN-A, the Chief Information Officer
                  did not accept the accrediting official’s ATO because the network
                  was reaccredited without the required security documents. In its
                  Fiscal Year 2008 FISMA submission to the Office of Management
                  and Budget, the Chief Information Officer reported that LAN-A
                  was one of the systems without an ATO.

                  In a November 2008 meeting, a program official indicated that
                  DHS was in the process of defining a new system boundary for
                  LAN-A and reaccrediting the network. According to the program
                  official, the required security documents are being developed in
                  accordance with applicable DHS and NIST guidance.

                  DHS requires security documents to be part of the accreditation
                  package and be updated periodically. Specifically, DHS requires
                  the following 11 documents to support the accreditation decision:
                  ATO letter, system security plan, security assessment report, risk
                  assessment, security test and evaluation, contingency plan,
                  contingency plan test results, Federal Information Processing
                  Standard 199 determination, e-authentication determination,
                  privacy threshold analysis, and NIST Special Publication 800-53
                  assessment.

                  Understanding the overall effectiveness of security controls for an
                  information system is essential in determining the risk to DHS’
                  operations and assets. Without the updated security documents,
                  program officials cannot make credible risk-based decisions on
                  whether to authorize systems to operate or ensure that systems are
                  adequately secure.




Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 17
         Recommendations
         We recommend that the Chief Information Officer direct the LAN-A
         Information Systems Security Manager to:

                  Recommendation #9: Develop all required security documents
                  according to applicable DHS and NIST guidance before LAN-A is
                  reaccredited.

                  Recommendation #10: Maintain and update periodically security
                  documents that support LAN-A’s accreditation.

         Management Comments and OIG Analysis
                  DHS concurred with recommendation 9. LAN-A program
                  officials acknowledge the need and intent to verify that all
                  appropriate and applicable security documents are completed for
                  LAN-A’s re-accreditation. However, the program officials
                  believed that the network was accredited in accordance with NIST
                  standards. After a security assessment was performed in
                  July 2008, program officials maintained that the DAA had a
                  reasonable measure of risk and decided to accredit LAN-A for a
                  short period of time. The program officials added that LAN-A’s
                  accreditation was consistent with NIST guidance which allows the
                  DAA to make a reasonable assumption of risk based on the
                  information presented to support the decision.

                  Without the required security documents, we maintain that
                  LAN-A’s July 2008 accreditation was not consistent with
                  applicable DHS and NIST guidance. In particular, NIST requires
                  that the system security plan be provided to the DAA, as part of the
                  accreditation package, along with the results from the security
                  assessment to make a credible, risk-based decision on whether to
                  accredit the system. The system security plan can also contain, as
                  supporting appendices or references to other key security
                  documents, such as the risk assessment, privacy impact
                  assessment, contingency plan, incident response plan,
                  configuration management plan, security configuration checklists,
                  and any system interconnection agreements. At the time LAN A
                  was accredited in July 2008, all security documents were outdated.
                  As a result, the DAA did not have the necessary information to
                  make a credible decision to certify and accredit the LAN A.

                  DHS concurred with recommendation 10. DHS has divided the
                  network into four manageable general support systems and will

Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 18
                  ensure each is fully documented. Accreditation packages will be
                  developed for each system, and maintained and updated
                  periodically.

                  We agree that the steps DHS are taking, and plans to take, begin to
                  satisfy this recommendation.




Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                        Page 19
Appendix A
Purpose, Scope, and Methodology



                       The objective of this review was to determine whether DHS is
                       effectively managing its headquarters’ local area network, known
                       as LAN-A. Specifically, we determined whether: (1) the
                       contractor provided adequate support services according to the
                       contract terms; (2) effective controls have been implemented to
                       protect the network; and (3) FISMA requirements have been
                       implemented.

                       We interviewed selected personnel at DHS headquarters; data
                       centers located at Clarksville, Virginia, and Stennis Space Center,
                       Mississippi; and IT-NOVA Service Desk Operations at
                       Indianapolis, Indiana. In addition, we reviewed and evaluated
                       DHS security policies and procedures, the IT-NOVA task order,
                       and other appropriate documentation. During the audit, we used
                       software tools, such as NESSUS and NMAP to detect, analyze,
                       and evaluate the effectiveness of controls implemented on selected
                       servers, workstations, and switches. Upon completion of the
                       assessments, we provided program officials with the technical
                       reports detailing the specific vulnerabilities detected on LAN-A
                       network devices and the actions needed for remediation

                       We conducted this audit between July and December 2008
                       according to generally accepted government auditing standards.
                       Those standards require that we plan and perform the audit to
                       obtain sufficient, appropriate evidence to provide a reasonable
                       basis for our findings and conclusions based on our audit
                       objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives. Major OIG contributors to the audit are identified
                       in Appendix C.

                       The principal OIG points of contact for the evaluation are Frank
                       Deffer, Assistant Inspector General, Office of Information
                       Technology, at (202) 254-4041 and Edward G. Coleman, Director,
                       Information Security Audit Division, at (202) 254-5444.




     Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A 


                                             Page 20 

Appendix B
Management Comments




    Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A 


                                            Page 21 

Appendix B
Management Comments




    Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A 


                                            Page 22 

Appendix B
Management Comments




    Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A 


                                            Page 23 

Appendix B
Management Comments




    Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A 


                                            Page 24 

Appendix C
Major Contributors to this Report


                        Information Security Audit Division

                        Edward Coleman, Director
                        Chiu-Tong Tsang, Audit Manager
                        Mike Horton, IT Officer
                        Barbara Bartuska, Audit Manager
                        Maria Rodriguez, Team Lead
                        Aaron Zappone, Program Analyst
                        Charles Twitty, IT Auditor
                        Kristina Hayden, Program Analyst
                        Amanda Strickler, IT Specialist
                        Nazia Khan, IT Specialist
                        Thomas Rohrback, IT Specialist
                        David Bunning, IT Assistant

                        Karen Nelson, Referencer




      Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                              Page 25
Appendix D
Report Distribution


                        Department of Homeland Security

                        Secretary
                        Acting Deputy Secretary
                        Chief of Staff for Operations
                        Chief of Staff for Policy
                        Acting General Counsel
                        Executive Secretariat
                        Assistant Secretary for Policy
                        Assistant Secretary for Office of Public Affairs
                        Assistant Secretary for Office of Legislative Affairs
                        Chief Information Officer
                        Deputy Chief Information Officer
                        Chief Information Security Officer
                        Director, Compliance and Oversight
                        Director, GAO/OIG Liaison Office
                        Chief Information Officer Audit Liaison
                        Chief Information Security Officer Audit Manager

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as
                        appropriate




      Better Monitoring and Enhanced Technical Controls Are Needed to Effectively Manage LAN-A

                                              Page 26
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
